App. 1
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 20-1106
-----------------------------------------------------------------------

LINDA RIZZO-RUPON; SUSAN MARSHALL;
NOEMIEO OLIVEIRA,
Appellants
v.
INTERNATIONAL ASSOCIATION OF
MACHINISTS AND AEROSPACE WORKERS,
AFL-CIO DISTRICT 141, LOCAL 914;
INTERNATIONAL ASSOCIATION OF
MACHINISTS AND AEROSPACE WORKERS
DISTRICT LODGE 141; INTERNATIONAL
ASSOCIATION OF MACHINISTS
AEROSPACE WORKERS AFL-CIO
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 2-19-cv-00221)
Honorable William J. Martini, U.S. District Judge
-----------------------------------------------------------------------

Submitted Under Third Circuit L.A.R. 34.1(a)
on September 18, 2020
Before: KRAUSE, RESTREPO,
and BIBAS, Circuit Judges
(Opinion filed: September 23, 2020)

App. 2
-----------------------------------------------------------------------

OPINION*
-----------------------------------------------------------------------

KRAUSE, Circuit Judge.
Under the Railway Labor Act’s agency-fee provision, private-sector employers and unions may enter
agreements requiring non-union employees to ﬁnance
union activities. See 45 U.S.C. § 152, Eleventh(b). In
keeping with that provision, United Airlines authorizes Appellees International Association of Machinists
& Aerospace Workers, AFL-CIO, IAM District Lodge
141, and IAM Local 914 to collect fees from United’s
non-union employees. Appellants, who pay fees under
that agreement, argue that the Act amounts to a facial
violation of the First Amendment. Because the District
Court correctly recognized that controlling precedent
precludes Appellants’ claim, we will afﬁrm.
A. Discussion1
We begin with a premise that Appellants do not
dispute: If Railway Employes’ Department v. Hanson, 351 U.S. 225 (1956), remains good law, it bars
* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not constitute binding precedent.
1
The District Court had jurisdiction under 28 U.S.C. § 1331,
and we have jurisdiction under 28 U.S.C. § 1291. We review de
novo a district court’s dismissal under Rule 12(b)(6) for failure to
state a claim. See Mid-Am. Salt, LLC v. Morris Cty. Coop. Pricing
Council, 964 F.3d 218, 226 (3d Cir. 2020).

App. 3
Appellants’ First Amendment challenge. In Hanson,
the Supreme Court held that the Railway Labor Act’s
“requirement for ﬁnancial support of the collectivebargaining agency by all who receive the beneﬁts of
its work . . . does not violate [ ] the First [Amendment].”
Id. at 238. And as the Court has since clariﬁed, while
Hanson did not preclude as-applied challenges to the
Act, see Ellis v. Brotherhood of Ry., Airline & S.S.
Clerks, Freight Handlers, Express & Station Emps., 466
U.S. 435, 456 (1984); Intl Ass’n of Machinists v. Street,
367 U.S. 740, 748-49 (1961), it did foreclose claims, like
Appellants’, that attack only “the constitutional validity of [the Act] on its face,” Street, 367 U.S. at 748 (citing
Hanson, 351 U.S. at 238); see Bolden v. Se. Pa. Transp.
Auth., 953 F.2d 807, 827 (3d Cir. 1991) (en banc).
Recognizing as much, Appellants contend instead,
based on a trio of recent Supreme Court opinions, that
Hanson has been overruled. A review of those cases,
however, makes apparent that it has not—at least not
yet.
Appellants rely primarily on Janus v. American
Federation of State, County, and Municipal Employees,
Council 31, 138 S. Ct. 2448 (2018), where the Supreme
Court invalidated longstanding precedent permitting public-sector unions to force non-members to pay
agency fees. Id. at 2478 (overruling Abood v. Detroit Bd.
of Educ., 431 U.S. 209 (1977)). But Janus took pains to
distinguish Hanson, emphasizing that the “privatesector union shops” analyzed in Hanson presented “a
very different First Amendment question” than the

App. 4
public-sector unions at issue in Janus. Id. at 2479 (emphasis retained).
Nor does Knox v. Service Employees International
Union, Local 1000, 567 U.S. 298 (2012), support Appellants’ position. In that case, the Court considered
“whether the First Amendment allows a public-sector
union to require objecting nonmembers to pay a special
fee for the purpose of ﬁnancing the union’s political
and ideological activities.” Id. at 302 (emphasis added).
Consistent with its focus on public-sector unions, Knox
never even cited Hanson, let alone overruled it.
That leaves Harris v. Quinn, 573 U.S. 616 (2014),
the third and ﬁnal case Appellants read as invalidating Hanson. But Harris says nothing of the kind. Like
its predecessors, Harris reafﬁrmed Hanson’s determination that the Act “was constitutional in its bare authorization of union-shop contracts requiring workers
to give ﬁnancial support to unions.” Id. at 636 (internal
quotation marks and citation omitted). In other words,
the Court understood Hanson as holding that the Act
does not violate the First Amendment on its face, but
may be susceptible to as-applied challenges.
As a fallback position, Appellants maintain that
even if Janus, Knox, and Harris do not explicitly overrule Hanson, they undermine its reasoning. Whatever
the merits of this argument, however, the Supreme
Court alone retains “the prerogative of overruling its
own decisions.” Rodriguez de Quijas v. Shearson/Am.

App. 5
Express Inc., 490 U.S. 477, 484 (1989). Unless and until
that happens, Hanson remains binding precedent.2
B. Conclusion
For the foregoing reasons, we will afﬁrm the District Court’s order of dismissal.

2

The District Court dismissed the complaint on two alternative grounds: ﬁrst, that Appellees are not state actors, and second,
that Hanson forecloses facial First Amendment challenges to the
Act. Having determined that Hanson resolves this appeal, we see
no need to reach the state actor issue. In addition, because Plaintiffs have not contested the dismissal of their Fifth Amendment
claim, we deem that claim abandoned and need not discuss it
here. See Free Speech Coal., Inc. v. Ate y Gen., 677 F.3d 519, 545
(3d Cir. 2012).

App. 6
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF NEW JERSEY
LINDA RIZZO-RUPON,
et al.,
Plaintiffs,

Civ. No.: 2:19-cv-00221
OPINION
(Filed Dec. 16, 2019)

v.
INTERNATIONAL
ASSOCIATION OF
MACHINISTS AND
AEROSPACE WORKERS,
AFL-CIO, et al.,
Defendants.
WILLIAM J. MARTINI, U.S.D.J.:
In this action, Plaintiffs ask the Court to hold that
Section 2 Eleventh of the Railway Labor Act (“RLA”),
45 U.S.C. § 152 Eleventh, which preempts state law
prohibiting covered unions from entering into agreements providing for agency fees, is unconstitutional
under the First and Fifth Amendments. For the reasons set forth below, the Court declines to do so. Consequently, Plaintiffs fail to state a claim upon which
relief can be granted. Defendants’ Motion to Dismiss,
ECF No. 9, is GRANTED.

App. 7
I.

BACKGROUND AND PROCEDURAL HISTORY

Plaintiffs Linda Rizzo-Rupon, Susan Marshall, and
Noemieo Oliveira work as passenger service employees
for United Airlines at Newark Liberty International
Airport. Compl., ECF. No. 1 ¶¶ 1, 8-10. Defendants are
the International Association of Machinists and Aerospace Workers, AFL CIO, IAM District Lodge 141, and
IAM Local Lodge 914 (“the Union Defendants”). Id. at
¶¶ 11-13. Although not members of the Union Defendants, Plaintiffs are covered by the collective bargaining
agreement between United Airlines and IAM Local
Lodge 914 entitled Passenger Service Employees 20162021 (“the Agreement”). Id. at ¶¶ 8-10, 20, Compl. Exs.
2, 3, 5. The collective bargaining relationship between
United and the Union Defendant is governed by the
Railway Labor Act, 45 U.S.C. § 151, et. Seq. Compl.
¶ 11.
Pursuant to Article 8(B)(1) of the Agreement, employees are not required to become members of the Union, but they are required to pay “service fees,” also
know as agency fees, to the Union equal to monthly
membership dues. See Compl. Exs. 3, 5. Additionally,
nonmember agency fee payers may become “dues objectors” and pay a reduced fee rate for expenses only
directly related to collective bargaining matters.
Compl. Ex. 5, pp. 3, 5. The parties agree that New Jersey has not enacted a “right-to-work” law—that is, a
prohibition on unions from negotiating contracts with
employers that require all members who beneﬁt from

App. 8
the union contract to contribute to the costs of union
representation. See Def.’s Mot. 7; Pls’. Resp. 2.
Plaintiffs ﬁled suit on January 8, 2019. ECF No. 1.
Defendants ﬁled their Motion to Dismiss on June 3,
2019. ECF No. 9. Plaintiffs’ response deadline was delayed to allow the United States Attorney General to
intervene if he chose to do so. ECF No. 16. The Attorney
General did not do so. ECF No. 17. Plaintiffs ﬁled their
opposition on September 24, 2019. ECF No. 26. Defendants ﬁled their reply on October 8, 2019. ECF No. 28.
II.

STANDARD OF REVIEW

Federal Rule of Civil Procedure 12(b)(6) provides
for the dismissal of a complaint, in whole or in part, if
the plaintiff fails to state a claim upon which relief can
be granted. The moving party bears the burden of
showing that no claim has been stated. Hedges v.
United States, 404 F.3d 744, 750 (3d Cir. 2005). In deciding a motion to dismiss under Rule 12(b)(6), a court
must take all allegations in the complaint as true and
view them in the light most favorable to the plaintiff.
See Warth v. Seldin, 422 U.S. 490, 501 (1975). “A Rule
12(b)(6) dismissal is appropriate if, as a matter of law,
it is clear that no relief could be granted under any set
of facts that could be proved consistent with the allegations.” Wilson v. Rackmill, 878 F.2d 772, 774 (3d Cir.
1989).

App. 9
III. DISCUSSION
Defendants move to dismiss under Rule 12(b)(6)
for failure to state a claim. Plaintiffs bring a First
Amendment free speech challenge to the agency-fee
provisions of the Railway Labor Act, 45 U.S.C. § 152
Eleventh, and argue that the Supreme Court’s decision
in Janus v. AFSCME, 138 S. Ct. 2448 (2018) requires
that this Court ﬁnd agency fees are unconstitutional
as to employs covered by the Railway Labor Act. Plaintiffs ask for an injunction restraining the Union Defendants from forcing Plaintiffs to ﬁnancially support
the Union Defendants as a condition of employment
and to award damages. Compl. 8-9. Defendants argue,
in essence, that (1) Plaintiffs’ First Amendment claims
must fail because Defendants are not state actors and
(2) even if Defendants were state actors, the Supreme
Court’s decision in Railway Employees’ Dept. v. Hanson, 351 U.S. 225 (1956), upholding Section 2 Eleventh
against an identical constitutional challenge, is binding on this Court. The Court addresses each argument.
A. State Action Doctrine
The ﬁrst issue is whether the Union Defendants,
by entering into the Agreement providing for agency
fees under Section 2 Eleventh of the RLA, have engaged in state action sufﬁcient to raise a free speech
claim. The First Amendment provides, in relevant part,
that “Congress shall make no law . . . abridging freedom of speech.” U.S. Const. amend. I. The Free Speech
Clause prohibits only governmental abridgement of

App. 10
speech, not private abridgment of speech. See Manhattan Community Access Corp. v. Halleck, 139 S. Ct. 1921,
1928 (2019) (“By enforcing [the] constitutional boundary between the governmental and the private, the
state-action doctrine protects a robust sphere of individual liberty.”). “[A] private entity can qualify as a
state actor in a few limited circumstances—including,
for example, (i) when the private entity performs a traditional, exclusive public function . . . (ii) when the government compels the private entity to take a particular
action . . . or (iii) when the government acts jointly
with the private entity.” Id. (internal citations omitted).
Plaintiffs do not contend that the Union Defendants fall into any of these categories. Rather, they argue that the Supreme Court’s conclusion in Hanson
that state action was present sufﬁcient to reach the
merits of employee-plaintiffs’ free speech challenge to
Section 2 Eleventh of the RLA, also follows from the
facts of this case. The Supreme Court in Hanson found
that state action was present because, although Section 2 Eleventh did not require private sector unions
and employers to enter agreements providing for
agency fees, it preempted Nebraska’s right-to-work
law. See 351 U.S. at 231-32. The Hanson Court explained that “[i]f private rights are being invaded, it is
by force of an agreement made pursuant to federal law
which expressly declares that state law is superseded.”
Id. at 233. This was sufﬁcient for state action.
The parties agree that New Jersey has no right-towork law. Consequently, because no New Jersey law is

App. 11
preempted by Section 2 Eleventh of the RLA, Plaintiffs
possess no private rights implicated by the RLA. Id.
at 232. The Third Circuit in White v. Communication
Workers of America recognized that preemption of a
contrary state law by federal law was central to the
Hanson Court’s ﬁnding of state action in the RLA context. 370 F.3d 346, 353 (2004). The Supreme Court’s decision in Janus concerned only public sector unions
and did not alter this logic. 138 S. Ct. 2448, 2479 (noting that “Abood [v. Detroit Board of Education, 431 U.S.
209 (1977)] failed to appreciate that a very different
First Amendment question arises when a State requires its employees to pay agency fees.”). Plaintiffs appear to argue that state action arises because the RLA
preempts other states’ right-to-work laws. Pls’ Resp.
14. This argument is without merit. Plaintiffs in this
matter, unlike in Hanson, do not argue that they possess a right-to-work consistent with any states’ law, let
alone the one wherein they are employed.
The agency fee provision at issue in this case is
solely the result of a negotiated agreement between
private parties—the Union Defendants and United
Airlines. Section 2 Eleventh of the RLA permits, but
does not compel, private parties to engage in negotiation for contracts that include an agency fee provision.
New Jersey does not prohibit such negotiations. There
is no state action upon which to premise a First
Amendment free speech claim.

App. 12
B. Railway Employees’ Department v. Hanson is Binding on This Court
The Supreme Court in Hanson upheld the constitutionality of Section 2 Eleventh of the RLA, stating
explicitly “that the requirement for ﬁnancial support
of the collective-bargaining agency by all who receive
the beneﬁts of its work is within the power of Congress
under the Commerce Clause and does not violate either the First or the Fifth Amendments.” 351 U.S. at
238. Plaintiffs claim that the Supreme Court’s decision
in Janus overruled the Court’s holding in Hanson and
requires a ﬁnding that “agency fees are unconstitutional in the Railway Labor Act context.” Compl. ¶ 32.
Janus did not overrule Hanson. Janus applies to
public sector employees, not private sector employees.
See Janus, 138 S. Ct. at 2476, 2473 (public-sector fees
involve “the government . . . compel[ling] a person to
pay for another party’s speech,” on matters involving
“the budget of the government” and “the performance
of government services”). The Court in Janus speciﬁcally differentiated between Hanson, which “involved
Congress’s ‘bare authorization’ of private-sector union
shops under the Railway Labor Act,” and Abood,
“which failed to appreciate that a very different First
Amendment question arises when a State requires its
employees to pay agency fees.” Id. at 2479. With respect
to a non-consenting employee, the Court held, “this arrangement [in the public sector] violates the free
speech rights of nonmembers by compelling them to
subsidize private speech on matters of substantial
public concern.” Id. at 2460. In short, Janus stands for

App. 13
the limited proposition that when a government entity
and labor organization agree to require government
employees to pay agency fees, the First Amendment is
implicated in ways dramatically distinct from when
agency fees are agreed to in the private sector. Because
Plaintiffs here all work for a private company—United
Airlines—Janus has no application.
Even if it could be argued that the legal reasoning
behind binding precedent has been called into doubt by
another line of cases, dismissal is still required. See Rodriguez de Quijas v. Shearson/American Express Inc.,
490 U.S. 477, 484 (1989) (“If a precedent of this Court
has direct application in a case, yet appears to rest on
reasons rejected in some other line of decisions, the
Court of Appeals should follow the case which directly
controls, leaving to this Court the prerogative of overruling its own decisions.”). The parties agree that “it
may be . . . that the Supreme Court will eventually
overturn its prior holding . . . but the Supreme Court
is the only body that can make that determination.”
Pls.’ Resp. 15; Defs.’ Reply 10. Because this Court is
bound by the Supreme Court’s decision in Hanson and
its recent decision in Janus did not overrule Hanson,
this Court declines to hold that Section 2 Eleventh of
the Railway Labor Act (“RLA”), 45 U.S.C. § 152 Eleventh, is unconstitutional under the First and Fifth
Amendments.1
1

Plaintiffs’ failure to mention their Fifth Amendment claim
in their Response to Defendants’ Motion to Dismiss constitutes
abandonment and provides an alternative ground for dismissal of
that claim. See Reynolds v. Wagner, 128 F.3d 166, 178 (3d Cir.

App. 14
IV. CONCLUSION
Because Plaintiffs’ First Amendment claims fail as
a matter of law, they fail to state a claim upon which
relief can be granted under Rule 12(b)(6). Defendants’
Motion to Dismiss is GRANTED. Plaintiffs’ Cross-Motion for Declaratory Judgment, ECF No. 26, is DENIED. Plaintiffs’ Complaint is DISMISSED WITH
PREJUDICE.
Dated: December 16, 2019
/s/ William J. Martini
WILLIAM J. MARTINI, U.S.D.J.

1997) (holding that a single conclusory statement in a brief without more results in waiver of the argument); see also Batchelor v.
Procter & Gamble Co., No. 14-2424, 2014 WL 6065823, at *6
(D.N.J. Nov. 13, 2014) (Court dismissed an ambiguous claim for
breach on express warranty where plaintiff failed to address the
“ambiguity in their Opposition Brief, despite Defendant’s contention in support of the motion”).

App. 15
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 20-1106
-----------------------------------------------------------------------

LINDA RIZZO-RUPON;
SUSAN MARSHALL; NOEMIEO OLIVEIRA,
Appellants
v.
INTERNATIONAL ASSOCIATION OF
MACHINISTS AND AEROSPACE WORKERS,
AFL-CIO DISTRICT 141, LOCAL 914;
INTERNATIONAL ASSOCIATION OF
MACHINISTS AND AEROSPACE WORKERS
DISTRICT LODGE 141; INTERNATIONAL
ASSOCIATION OF MACHINISTS
AEROSPACE WORKERS AFL-CIO
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 2-19-cv-00221)
District Judge: Hon. William J. Martini
-----------------------------------------------------------------------

SUR PETITION FOR REHEARING
-----------------------------------------------------------------------

(Filed Oct. 30, 2020)

App. 16
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER,
MATEY, and PHIPPS, Circuit Judges
The petition for rehearing ﬁled by Appellants in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no judge who concurred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for rehearing by the panel and the Court en banc, is denied.
BY THE COURT,
s/ Cheryl Ann Krause
Circuit Judge
Dated: October 30, 2020
Tmm/cc: Matthew C. Moench, Esq.
Patrick J. Wright, Esq.
John J. Grunert, Jr., Esq.
Elizabeth A. Roma, Esq.

App. 17
U.S. Const. amend. I
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of grievances.

45 U.S.C. § 152
First. Duty of carriers and employees to settle
disputes
It shall be the duty of all carriers, their ofﬁcers, agents,
and employees to exert every reasonable effort to make
and maintain agreements concerning rates of pay,
rules, and working conditions, and to settle all disputes, whether arising out of the application of such
agreements or otherwise, in order to avoid any interruption to commerce or to the operation of any carrier
growing out of any dispute between the carrier and the
employees thereof.
Second. Consideration of disputes by representatives
All disputes between a carrier or carriers and its or
their employees shall be considered, and, if possible, decided, with all expedition, in conference between representatives designated and authorized so

App. 18
to confer, respectively, by the carrier or carriers and by
the employees thereof interested in the dispute.
Third. Designation of representatives
Representatives, for the purposes of this chapter, shall
be designated by the respective parties without interference, inﬂuence, or coercion by either party over the
designation of representatives by the other; and neither party shall in any way interfere with, inﬂuence, or
coerce the other in its choice of representatives. Representatives of employees for the purposes of this chapter need not be persons in the employ of the carrier,
and no carrier shall, by interference, inﬂuence, or coercion seek in any manner to prevent the designation by
its employees as their representatives of those who or
which are not employees of the carrier.
Fourth. Organization and collective bargaining;
freedom from interference by carrier; assistance
in organizing or maintaining organization by
carrier forbidden; deduction of dues from wages
forbidden
Employees shall have the right to organize and bargain collectively through representatives of their own
choosing. The majority of any craft or class of employees shall have the right to determine who shall be the
representative of the craft or class for the purposes of
this chapter. No carrier, its ofﬁcers, or agents shall
deny or in any way question the right of its employees
to join, organize, or assist in organizing the labor

App. 19
organization of their choice, and it shall be unlawful
for any carrier to interfere in any way with the organization of its employees, or to use the funds of the carrier in maintaining or assisting or contributing to any
labor organization, labor representative, or other
agency of collective bargaining, or in performing any
work therefor, or to influence or coerce employees in
an effort to induce them to join or remain or not to
join or remain members of any labor organization, or
to deduct from the wages of employees any dues, fees,
assessments, or other contributions payable to labor
organizations, or to collect or to assist in the collection
of any such dues, fees, assessments, or other contributions: Provided, That nothing in this chapter shall be
construed to prohibit a carrier from permitting an employee, individually, or local representatives of employees from conferring with management during working
hours without loss of time, or to prohibit a carrier from
furnishing free transportation to its employees while
engaged in the business of a labor organization.
Fifth. Agreements to join or not to join labor organizations forbidden
No carrier, its officers, or agents shall require any
person seeking employment to sign any contract or
agreement promising to join or not to join a labor organization; and if any such contract has been enforced
prior to the effective date of this chapter, then such carrier shall notify the employees by an appropriate order
that such contract has been discarded and is no longer
binding on them in any way.

App. 20
Sixth. Conference of representatives; time; place;
private agreements
In case of a dispute between a carrier or carriers and
its or their employees, arising out of grievances or out
of the interpretation or application of agreements concerning rates of pay, rules, or working conditions, it
shall be the duty of the designated representative or
representatives of such carrier or carriers and of such
employees, within ten days after the receipt of notice
of a desire on the part of either party to confer in respect to such dispute, to specify a time and place at
which such conference shall be held: Provided, (1) That
the place so speciﬁed shall be situated upon the line of
the carrier involved or as otherwise mutually agreed
upon; and (2) that the time so speciﬁed shall allow the
designated conferees reasonable opportunity to reach
such place of conference, but shall not exceed twenty
days from the receipt of such notice: And provided further, That nothing in this chapter shall be construed to
supersede the provisions of any agreement (as to conferences) then in effect between the parties.
Seventh. Change in pay, rules, or working conditions contrary to agreement or to section 156 forbidden
No carrier, its ofﬁcers, or agents shall change the rates
of pay, rules, or working conditions of its employees, as
a class, as embodied in agreements except in the manner prescribed in such agreements or in section 156 of
this title.

App. 21
Eighth. Notices of manner of settlement of disputes; posting
Every carrier shall notify its employees by printed notices in such form and posted at such times and places
as shall be speciﬁed by the Mediation Board that all
disputes between the carrier and its employees will be
handled in accordance with the requirements of this
chapter, and in such notices there shall be printed
verbatim, in large type, the third, fourth, and fifth
paragraphs of this section. The provisions of said paragraphs are made a part of the contract of employment
between the carrier and each employee, and shall be
held binding upon the parties, regardless of any other
express or implied agreements between them.
Ninth. Disputes as to identity of representatives;
designation by Mediation Board; secret elections
If any dispute shall arise among a carrier’s employees
as to who are the representatives of such employees
designated and authorized in accordance with the requirements of this chapter, it shall be the duty of the
Mediation Board, upon request of either party to the
dispute, to investigate such dispute and to certify to
both parties, in writing, within thirty days after the receipt of the invocation of its services, the name or
names of the individuals or organizations that have
been designated and authorized to represent the employees involved in the dispute, and certify the same to
the carrier. Upon receipt of such certiﬁcation the carrier shall treat with the representative so certiﬁed as
the representative of the craft or class for the purposes

App. 22
of this chapter. In such an investigation, the Mediation
Board shall be authorized to take a secret ballot of the
employees involved, or to utilize any other appropriate
method of ascertaining the names of their duly designated and authorized representatives in such manner
as shall insure the choice of representatives by the employees without interference, inﬂuence, or coercion exercised by the carrier. In the conduct of any election for
the purposes herein indicated the Board shall designate who may participate in the election and establish
the rules to govern the election, or may appoint a committee of three neutral persons who after hearing shall
within ten days designate the employees who may participate in the election. In any such election for which
there are 3 or more options (including the option of not
being represented by any labor organization) on the
ballot and no such option receives a majority of the
valid votes cast, the Mediation Board shall arrange for
a second election between the options receiving the
largest and the second largest number of votes. The
Board shall have access to and have power to make
copies of the books and records of the carriers to obtain
and utilize such information as may be deemed necessary by it to carry out the purposes and provisions of
this paragraph.
Tenth. Violations; prosecution and penalties
The willful failure or refusal of any carrier, its ofﬁcers
or agents, to comply with the terms of the third, fourth,
ﬁfth, seventh, or eighth paragraph of this section shall
be a misdemeanor, and upon conviction thereof the

App. 23
carrier, ofﬁcer, or agent offending shall be subject to a
ﬁne of not less than $1,000, nor more than $20,000, or
imprisonment for not more than six months, or both
ﬁne and imprisonment, for each offense, and each day
during which such carrier, ofﬁcer, or agent shall willfully fail or refuse to comply with the terms of the said
paragraphs of this section shall constitute a separate
offense. It shall be the duty of any United States attorney to whom any duly designated representative of a
carrier’s employees may apply to institute in the
proper court and to prosecute under the direction of
the Attorney General of the United States, all necessary proceedings for the enforcement of the provisions
of this section, and for the punishment of all violations
thereof and the costs and expenses of such prosecution
shall be paid out of the appropriation for the expenses
of the courts of the United States: Provided, That nothing in this chapter shall be construed to require an individual employee to render labor or service without
his consent, nor shall anything in this chapter be construed to make the quitting of his labor by an individual employee an illegal act; nor shall any court issue
any process to compel the performance by an individual employee of such labor or service, without his consent.
Eleventh. Union security agreements; check-off
Notwithstanding any other provisions of this chapter,
or of any other statute or law of the United States, or
Territory thereof, or of any State, any carrier or carriers as deﬁned in this chapter and a labor organization

App. 24
or labor organizations duly designated and authorized
to represent employees in accordance with the requirements of this chapter shall be permitted –
(a) to make agreements, requiring, as a condition of
continued employment, that within sixty days following the beginning of such employment, or the effective
date of such agreements, whichever is the later, all employees shall become members of the labor organization representing their craft or class: Provided, That no
such agreement shall require such condition of employment with respect to employees to whom membership
is not available upon the same terms and conditions as
are generally applicable to any other member or with
respect to employees to whom membership was denied
or terminated for any reason other than the failure of
the employee to tender the periodic dues, initiation
fees, and assessments (not including ﬁnes and penalties) uniformly required as a condition of acquiring or
retaining membership.
(b) to make agreements providing for the deduction
by such carrier or carriers from the wages of its or their
employees in a craft or class and payment to the labor
organization representing the craft or class of such
employees, of any periodic dues, initiation fees, and
assessments (not including ﬁnes and penalties) uniformly required as a condition of acquiring or retaining
membership: Provided, That no such agreement shall
be effective with respect to any individual employee
until he shall have furnished the employer with a written assignment to the labor organization of such membership dues, initiation fees, and assessments, which

App. 25
shall be revocable in writing after the expiration of one
year or upon the termination date of the applicable collective agreement, whichever occurs sooner.
(c) The requirement of membership in a labor organization in an agreement made pursuant to subparagraph (a) of this paragraph shall be satisﬁed, as to both
a present or future employee in engine, train, yard, or
hostling service, that is, an employee engaged in any of
the services or capacities covered in the First division
of paragraph (h) of section 153 of this title deﬁning the
jurisdictional scope of the First Division of the National Railroad Adjustment Board, if said employee
shall hold or acquire membership in any one of the
labor organizations, national in scope, organized in
accordance with this chapter and admitting to membership employees of a craft or class in any of said
services; and no agreement made pursuant to subparagraph (b) of this paragraph shall provide for deductions from his wages for periodic dues, initiation
fees, or assessments payable to any labor organization
other than that in which he holds membership: Provided, however, That as to an employee in any of said
services on a particular carrier at the effective date of
any such agreement on a carrier, who is not a member
of any one of the labor organizations, national in scope,
organized in accordance with this chapter and admitting to membership employees of a craft or class in any
of said services, such employee, as a condition of continuing his employment, may be required to become a
member of the organization representing the craft in

App. 26
which he is employed on the effective date of the ﬁrst
agreement applicable to him:
Provided, further, That nothing herein or in any such
agreement or agreements shall prevent an employee
from changing membership from one organization to
another organization admitting to membership employees of a craft or class in any of said services.
(d) Any provisions in paragraphs Fourth and Fifth of
this section in conﬂict herewith are to the extent of
such conﬂict amended.
Twelfth. Showing of interest for representation
elections
The Mediation Board, upon receipt of an application
requesting that an organization or individual be certiﬁed as the representative of any craft or class of employees, shall not direct an election or use any other
method to determine who shall be the representative
of such craft or class unless the Mediation Board determines that the application is supported by a showing of interest from not less than 50 percent of the
employees in the craft or class.

App. 27
MOENCH LAW, LLC
By: Matthew C. Moench, Esq., 031462007
1303 Roger Avenue,
Bridgewater, New Jersey 08807
T: (908) 208-1910
F: (908) 393-7103
moenchlawllc@mail.com
Attorney for Plaintiff,
Linda Rizzo-Rupon,
Susan Marshall, and
Noemieo Oliveira
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
LINDA RIZZO-RUPON,
SUSAN MARSHALL,
NOEMIEO OLIVEIRA,
Plaintiffs,
vs.
INTERNATIONAL ASSOCIATION OF MACHINISTS AND
AEROSPACE WORKERS, AFLCIO DISTRICT 141 LOCAL 914,
INTERNATIONAL ASSOCIATION OF MACHINISTS AND
AEROSPACE WORKERS,
DISTRICT LODGE 141,
INTERNATIONAL ASSOCIATION OF MACHINISTS AND
AEROSPACE WORKERS,
AFL-CIO,
Defendants.

Case No.:
COMPLAINT
(Filed Jan. 8, 2019)

App. 28
Plaintiffs, Linda Rizzo-Rupon, residing at 126
Main Street, Whitehouse Station, New Jersey 08889,
Susan Marshall, residing at 156 Plainﬁeld Road, Metuchen, New Jersey 08840, and Noemieo Oliveira, residing at 2275 Biddle Lane Easton, Pennsylvania 18040
(collectively, “Plaintiffs”), by and through undersigned
counsel, by way of Complaint against defendants International Association of Machinists and Aerospace
Workers, AFL-CIO (“JAM”), with ofﬁces at 9000 Machinists Place, Upper Marlboro, Maryland 20772-2687,
International Association of Machinists and Aerospace
Workers, District Lodge 141 (“JAM District Lodge
141”), with ofﬁces at 1771 Commerce Drive, Suite 103,
Elk Grove Village, Illinois 60007-2139, and International Association of Machinists and Aerospace Workers District Lodge 141, Local Lodge 914 (“IAM Local
Lodge 914”), with ofﬁces at 160 Spring Street, Elizabeth, New Jersey, 07201 (collectively, the “Union Defendants”), allege as follows:
BACKGROUND AND NATURE OF THE ACTION
1. Plaintiffs are employees of United Airlines
and work out of the Newark, New Jersey airport.
2. In Janus v. AFSCME Council 31, 585 U.S. ___
(2018), the Supreme Court held:
States and public-sector unions may no longer
extract agency fees from nonconsenting employees. Under Illinois law, if a public-sector
collective-bargaining agreement includes an
agency-fee provision and the union certiﬁes to

App. 29
the employer the amount of the fee, that
amount is automatically deducted from the
nonmember’s wages. §315/6(e). No form of
employee consent is required. This procedure
violates the First Amendment and cannot
continue. Neither an agency fee nor any other
payment to the union may be deducted from a
nonmember’s wages, nor may any other attempt be made to collect such a payment, unless the employee afﬁrmatively consents to
pay. By agreeing to pay, nonmembers are
waiving their First Amendment rights, and
such a waiver cannot be presumed.
Janus, slip opinion at 48.
3. In Janus, the Supreme Court discussed two of
its Railway Labor Act (“RLA”) cases wherein agency
fees had been permitted:
Railway Employes v. Hanson, 351 U.S. 225
(1956), and Machinists v. Street, 367 U.S. 740
(1961), “appear[ed] to require validation of the
agency shop agreement before [the Court].”
431 U.S., at 226. Properly understood, those
decisions did no such thing. Both cases involved Congress’s “bare authorization” of private-sector union shops under the Railway
Labor Act. Street, supra, at 749 (emphasis
added).24
24

No First Amendment issue could have
properly arisen in those cases unless Congress’s enactment of a provision allowing,
but not requiring, private parties to enter into
union-shop arrangements was sufﬁcient to

App. 30
establish governmental action. That proposition was debatable when Abood was decided,
and is even more questionable today. See
American Mfrs. Mut. Ins. Co. v. Sullivan, 526
U.S. 40, 53 (1999); Jackson v. Metropolitan
Edison Co., 419 U.S. 345, 357 (1974). Compare,
e.g., White v. Communications Workers of
Am., AFL–CIO, Local 13000, 370 F. 3d 346,
350 (CA3 2004) (no state action), and Kolinske
v. Lubbers, 712 F. 2d 471, 477-478 (CADC
1983) (same), with Beck v. Communications
Workers of Am., 776 F. 2d 1187, 1207 (CA4
1985) (state action), and Linscott v. Millers
Falls Co., 440 F. 2d 14, 16, and n. 2 (CA1 1971)
(same). We reserved decision on this question
in Communications Workers v. Beck, 487 U. S.
735, 761 (1988), and do not resolve it here.
Janus, slip opinion at 35 and n. 24.
4. Agency fees are authorized under 45 U.S.C.
§ 152 Eleventh Plaintiffs’ claims arise under the First
and Fifth Amendments to the United States Constitution. They seek to have agency fees declared unconstitutional in the RLA context.
JURISDICTION AND VENUE
5. The Court has subject matter jurisdiction under 28 U.S.C. § 1331, and 28 U.S.C. § 1343.
6. Venue is appropriate in this jurisdiction because a substantial part of the events or omissions giving rise to the claim occurred in this judicial district.
28 U.S.C. § 1391(b)(2).

App. 31
7. Newark would appear to be the most appropriate Vicinage because the events arose out of Plaintiffs’
employment, which occurred in Newark, New Jersey.
See generally, Local Civil Rule 40.1(a).
PARTIES
8. Plaintiff Linda Rizzo-Rupon is an “employee”
under 45 U.S.C. § 151 Fifth and 45 U.S.C. § 181. She
works at Newark International Airport as a customer
service representative. She is covered by a collective
bargaining agreement between United Airlines (not a
party) and Defendant JAM, District Lodge 141; but,
she is not a member of the Union Defendants. She has
not signed a dues authorization card.
9. Plaintiff Susan Marshall is an “employee” under 45 U.S.C. § 151 Fifth and 45 U.S.C. § 181. She
works at Newark International Airport as a customer
service representative. She is covered by a collective
bargaining agreement between United Airlines (not a
party) and Defendant JAM, District Lodge 141; but,
she is not a member of the Union Defendants. She has
not signed a dues authorization card.
10. Plaintiff Noemieo Oliveira is an “employee”
under 45 U.S.C. § 151 Fifth and 45 U.S.C. § 181. He
works at Newark International Airport as a customer
service representative. He is covered by a collective
bargaining agreement between United Airlines (not a
party) and Defendant JAM, District Lodge 141; but, he
is not a member of the Union Defendants. He has not
signed a dues authorization card.

App. 32
11. Defendant IAM is a “representative” under
45 U.S.C. § 151 Sixth and 45 U.S.C. § 181. Upon information and belief, its main ofﬁce is located at 9000 Machinists Place, Upper Marlboro, Maryland 20772-2687.
12. Upon information and belief, Defendant IAM
District Lodge 141 is a “representative” under 45
U.S.C. § 151 Sixth and 45 U.S.C. § 181. Upon further
information and belief, its main ofﬁce is located at 1771
Commerce Drive, Suite 103, Elk Grove Village, Illinois
60007-2139.
13. Upon information and belief, Defendant IAM
Local Lodge 914 is a "representative” under 45 U.S.C.
§ 151 Sixth and 45 U.S.C. 181. Upon further information and belief, its main ofﬁce is 160 Spring Street,
Elizabeth, New Jersey, 07201.
FACTS
14. United Airlines and Continental Airlines
Merger Agreement became effective on October 1,
2010.
15. United Airlines and Continental Airlines
were issued a single operating certiﬁcate by the Federal Aviation Administration on November 30, 2011.
16. Pre-merger, the United Passenger Service
Employees were represented by Defendant IAM and
Defendant IAM District Lodge 141.
17. Pre-merger, the Continental Passenger Service Employees were not represented by a union.

App. 33
18. Post-merger, the National Mediation Board
conducted a “single-carrier proceeding,” wherein the
Board works out union representation issues where
there are mergers. See generally, National Mediation
Board Manual § 19.5 (June 12, 2018), a selection of
which is attached hereto as Exhibit 1.
19. The single-carrier proceeding led to an election whereby the employees could choose between Defendant IAM or no union. Defendant IAM prevailed.
United Airlines, 39 NMB 294 (March 8, 2012) (NMB
Case No. R-7313), attached hereto as Exhibit 2.
20. Currently, all Plaintiffs are in a bargaining
unit covered by a collective bargaining agreement titled “Passenger Service Employees 2016-2021 Agreement.” (“PSE Agreement”). A copy of the relevant
portions is attached hereto as Exhibit 3.
21. As authorized by 45 U.S.C. § 152 Eleventh,
Article 8, Part B. 1. of the PSE Agreement requires
nonmembers of Union Defendants to pay an agency
fee:
As a condition of employment, all employees
of the Company covered by this Agreement
will, on the effective Date of this Agreement,
become and remain members in good standing of the Union or, in the alternative, render
the Union a monthly sum equivalent to the
standard monthly dues required of the Union
members (“Service Fees.”) Employees covered
by this Agreement and hired on or after the
Agreement’s effective date will comply with

App. 34
these requirements on or before the 60th day
following their initial seniority date.
Id.
22. Article 8, Part B. 8. of the PSE Agreement
discusses delinquency of service fees:
If an employee covered by this Agreement
becomes delinquent in the payment of monthly
dues or Service Fees, the Union will take
steps necessary in accordance with its established procedures to notify the employee in
writing that he is delinquent in the payment
of monthly membership dues or Service Fees
as speciﬁed herein and accordingly will be
subject to discharge as an employee of the
Company. If such employee still remains delinquent in the payment of dues or service fees
after the Union has completed all steps in its
established procedure, the Union will certify
in writing to the Company that the employee
has failed to remit payment of dues or Service
Fees within the grace period allowed under
the Union’s procedure and is, therefore, to be
discharged. The Company will then promptly
notify the employee involved that he is to be
discharged from the services of the Company
and will promptly take proper steps to so discharge the employee.
Id.
23. Upon information and belief, agency fees are
generally collected by Defendant TAM Local Lodge 914
and remitted to Defendant TAM District Lodge 141.

App. 35
See, International Association of Machinists and Aerospace Workers Constitution (January 1, 2017) at Article XXII § 4 pp. 83-84, attached hereto as Exhibit 4.
24. Upon information and belief, Defendant JAM
District Lodge 141 pays a per capita tax to Defendant
JAM on behalf of itself and Defendant IAM Local
Lodge 914. See, International Association of Machinists
and Aerospace Workers Constitution (January 1, 2017)
at Article VII § 4 pp. 41-43. Id.
25. Each Plaintiff received a September 8, 2017
letter from Alexander Gerulis, Secretary Treasurer of
Defendant TAM District Lodge 141 (attached hereto as
Exhibit 5). Plaintiffs were offered an opportunity to
join the union. The letters also noted certain fee-payer
requirements and a potential penalty for failing to
keep up with payments:
According to IAM’s records, you are recognized as a fee objector. Therefore, your fee will
be reduced per the letter you received. The reduced initiation fee is $77.87 and the reduced
non-member fee is $43.26/month. You should
have already received notice of the obligation
to pay initiation and monthly dues or fees
when you joined the bargaining unit, but
whether or not you did, you now have thirty
(30) days from the date of this letter to make
your initial payments of the initiation/reinstatement fee and the ﬁrst month’s dues. If
you fall two months in arrears in making the
required payments you will be terminated
from employment under the terms of the collective bargaining agreement.

App. 36
After making these payments, you must continue to be in compliance with your ﬁnancial
obligations by making monthly payments to
the union. The easiest way to meet your obligation going forward is to sign the attached
check-off authorization, so that your monthly
fees are automatically deducted from your
paycheck. If you do not authorize check-off,
you are responsible to make monthly payments by check to the union. Even if you agree
to check-off, you still should send your ﬁrst
payment for initiation/reinstatement fee and
one month’s dues or fees to this office by check.
Please ﬁll out and return the application with
your payment of $1221.13 to I.A.M.A.W District Lodge 141 at the address indicated on
the letterhead. If you have any questions
about these materials or have some explanation for nonpayment, please do not hesitate to
contact us.
Exhibit 5.1
26. Perhaps contrary to the Union Defendants’
preferred procedure, Plaintiff Rizzo-Rupon has been
sending her agency-fee checks to Defendant JAM District Lodge 141 as opposed to Defendant IAM Local
Lodge 914. For reasons that are not entirely clear,
Plaintiff Rizzo-Rupon’s March 2018 and April 2018
checks were returned to her by Defendant JAM District Lodge 141 and requested to be sent to Defendant
JAM Local Lodge 914 despite the January 2018,
1

The handwritten material on Plaintiff Rizzo-Rupon’s letter
are her own notes.

App. 37
February 2018, May 2018, June 2018, and July 2018
checks being accepted by Defendant IAM District
Lodge 141. A letter from Defendant District Lodge 141
is attached hereto as Exhibit 6.
27. Plaintiff Rizzo-Rupon sent replacement
checks for the March 2018 and April 2018 checks to
Defendant IAM District Lodge 141 on December 27,
2018. Plaintiff Rizzo-Rupon’s letter is attached hereto
as Exhibit 7.
28. Upon information and belief, all Plaintiffs
are current in their agency-fee payments.
CAUSES OF ACTION
COUNT I – Agency fee
29. Plaintiffs incorporate paragraph 1 through
28 as though fully set forth herein.
30. Union Defendants, under color of federal law,
force employees to ﬁnancially support the Union Defendants or suffer discharge from their jobs.
31. The Union Defendants’ actions are authorized by 45 U.S.C. § 152 Eleventh, yet the federal government lacks a compelling governmental interest to
require nonmembers to ﬁnancially support a union.
32. Plaintiffs are suing the Union Defendants
under the First and Fifth Amendments and under 28
U.S.C. § 2201, the Declaratory Judgment Act. More
speciﬁcally, Plaintiffs seek a declaration that, under
Janus and/or any other relevant case law, agency fees
are unconstitutional in the Railway Labor Act context.

App. 38
DEMAND FOR RELIEF
WHEREFORE, Plaintiffs hereby request that this
court:
a.

Declare that the RLA’s authorization of compulsory agency fees, 45 U.S.C. § 152 Eleventh
is unconstitutional.

b.

Enjoin the Union Defendants from attempting to force Plaintiffs to ﬁnancially support
the Union Defendants as a condition of employment.

c.

Award appropriate compensatory and/or nominal damages.

d.

Award Plaintiffs their attorney fees along
with costs; and

e.

Grant all other relief that the Court deems
just, proper, and equitable.

By: /s/ Matthew C. Moench
Patrick J. Wright, Esq.*
Matthew C. Moench, Esq.
Mackinac Center Legal
Moench Law, LLC
Foundation
1303 Roger Avenue
140 W Main Street
Bridgewater, NJ 08807
Midland, MI 48642
(908) 208-1910
(989) 631-0900
moenchlawllc@gmail.com
wright@mackinac.org
Counsel for Plaintiffs,
* pro hac vice
application pending
January 8, 2019

Linda Rizzo-Rupon,
Susan Marshall,
and Noemio Oliveira

App. 39
EXHIBIT 1
NATIONAL MEDIATION BOARD
REPRESENTATION MANUAL
[SEAL]
Revised Text Effective June 12, 2018
NOTICE
This Manual provides general procedural guidance to
the National Mediation Board’s staff with respect to
the processing of representation cases before the NMB.
Such procedural guidance is not required by or subject
to the Administrative Procedure Act. The provisions of
this Manual are neither obligatory upon the Members
of the Board nor do they constitute the exclusive procedure for the NMB’s investigation of representation
matters pursuant to the Railway Labor Act.
Mary L. Johnson
General Counsel
(Revised text is effective June 12, 2018, and replaces
all previous versions of the Manual as of that date.)
*

*

*

business days after the date of the tally. Participants may respond to such allegations by 4 p.m.,
Eastern Time, seven (7) business days after the
General Counsel’s receipt of the interference allegations. All submissions must comply with the
simultaneous service requirements in Manual
Section 1.2.
Allegations of election interference must state a
prima fade case that the laboratory conditions

App. 40
were tainted and must be supported by substantive evidence. Allegations of election interference not sufﬁciently supported by substantive
evidence will be dismissed.
If the NMB ﬁnds a prima facie case of election
interference, the General Counsel will notify the
participants in writing or electronically.
18.0

BARS TO REPRESENTATION APPLICATIONS
The NMB’s representation bar procedures are
set forth in the NMB Rule §1206.4 (29 CFR
§1206.4).

19.0

MERGER PROCEDURES

19.1

Merger
Merger is a consolidation, merger, purchase,
lease, operating contract, acquisition of control,
or similar transaction of two or more business
entities.

19.2

Authority
Pursuant to Section 2, Ninth, the NMB, upon
an Application, has the authority to resolve
representation disputes arising from a merger
involving a Carrier or Carriers covered by the
RLA. The NMB will consider these representation issues on a case-by-case basis.

19.3

Notice to NMB
A Carrier should notify the NMB electronically
at OLA-eﬁle@nmb.gov when any of the transactions described in Section 19.1 occur, or of:

App. 41
1) an intent to merge, at the same time it ﬁles
with the Surface Transportation Board (STB) or
the Department of Transportation (DOT); and
2) a completed merger including the date of
the merger and the Carriers (or business entities) involved.
Notices must comply with the service requirements of Section 1.2.
19.4

Initiation of Procedure for Determination of a
Single Transportation System
Any organization or individual may ﬁle an application, supported by evidence of representation or a showing of interest (See Section
19.601), seeking a NMB determination that a
single transportation system exists.

19.5

Merger Investigations
After an application is ﬁled, the NMB will conduct a pre-docket investigation to determine
whether a single transportation system exists.
The investigation may take any form appropriate to the determination.

19.501 Factors Indicating a Single Transportation
System
The following are some indicia of a single
transportation system:
(1) published combined schedules or
combined routes;
(2) standardized uniforms;

App. 42
(3) common marketing, markings or insignia;
(4) integrated essential operations such
as scheduling or dispatching;
(5) centralized labor and personnel operations;
(6) combined or common management,
corporate ofﬁcers, and board of directors;
(7) combined workforce; and,
(8) common or overlapping ownership.
19.6

Procedure After Finding Single Transportation System
If the NMB determines that a single transportation system exists, the investigation will
proceed to address the representation of the
proper craft or class. The bar rules in NMB
Rule §1206.4 (29 CFR § 1206.4) do not apply
to applications ﬁled under this section.

EXHIBIT 2
39 NMB 294 (N.M.B.), 39 NMB No. 30,
2012 WL 786234
National Mediation Board (NMB)
IN THE MATTER OF THE REPRESENTATION
OF EMPLOYEES OF UNITED AIRLINES
PASSENGER SERVICE EMPLOYEES

App. 43
Case No.

March 8, 2012
CERTIFICATION
The services of the National Mediation Board (Board)
were invoked by the International Association of Machinists and Aerospace Workers (IAM) on September
20, 2011, to investigate and determine who may represent for the purposes of the Railway Labor Act (RLA),
as provided by Section 2, Ninth, thereof, personnel described as “Passenger Service Employees,” employees
of United Air Lines (Carrier).
At the time this application was received, these employees were represented in part by the IAM and in
part by the International Brotherhood of Teamsters.
The Board assigned Investigators Maria-Kate Dowling
and Angela I. Heverling to investigate.
FINDINGS
The investigation disclosed that a dispute existed
among the craft or class of Passenger Service Employees, and by direction of the Board, the Investigators
were instructed to conduct an election to determine the
employees’ representation choice.
The following is the result of the election as reported
by Investigators Dowling and Heverling.

App. 44
Election Results for Passenger Service Employees
Eligible Employees

16,720

Total Valid Votes

14,170

IAM

8,240

Other

65

Void

13

“No” Votes

5,865

The Board further ﬁnds that: the Carrier and employees in this case axe, respectively, a Carrier and employees within the meaning of the RLA, as amended; this
Board has jurisdiction over the dispute involved
herein; and the interested parties, as well as the Carrier, were given due notice of the Board’s investigation.
CERTIFICATION
NOW, THEREFORE, in accordance with Section 2,
Ninth, of the RLA, as amended, and based upon its
investigation pursuant thereto, the Board certiﬁes
that the International Association of Machinists and
Aerospace Workers has been duly designated and authorized to represent for the purposes of the RLA, as
amended, the craft or class of Passenger Service Employees, employees of United Air Lines/Continental
Airlines, its successors and assigns,

App. 45
By direction of the NATIONAL MEDIATION BOARD.
Mary L. Johnson
General Counsel

EXHIBIT 3

Passenger Service Employees
2016 – 2021 Agreement

App. 46
Between United Airlines and
The International Association of Machinists
And Aerospace Workers (IAMAW)
ARTICLE 8: UNION REPRESENTATION
A. Recognition The Company recognizes the Union as
the exclusive representative and sole collective bargaining agent with respect to rates of pay, rules and
working conditions for all employees employed by the
Company composing the craft or class of Passenger
Service Employees for purposes of the Railway Labor
Act, pursuant to the certiﬁcation issued by the National Mediation Board on March 8, 2012, in Case No.
R-7313.
B.

Union Security
1. As a condition of employment, all employees of the Company covered by this Agreement
will, on the Effective Date of this Agreement, become and remain members in good standing of the
Union or, in the alternative, render the Union a
monthly sum equivalent to the standard monthly
dues required of the Union members (“Service
Fees.”) Employees covered by this Agreement and
hired on or after the Agreement’s effective date
will comply with these requirements on or before
the 60th day following their initial seniority date.
2. During the life of this Agreement the
Company agrees to deduct from the pay of each
member of the Union and remit to the Union
standard initiation (or reinstatement) fee, Service
Fees, and monthly membership dues uniformly

App. 47
levied in accordance with the constitution and bylaws of the Union as prescribed by the Railway Labor Act, as amended, provided such member of the
Union voluntarily executes form(s), to be known as
a check-off form. Such authorization form will be
provided by the Union, and will provide such information as the Company may require to make
the deductions. The Company will pay over to the
District Lodge 141 the wages withheld for such
fees and/or dues. The amount so withheld will be
deducted from the appropriate paycheck, reported
and paid to the Union monthly. The employee’s
employee number, last name, ﬁrst name, middle
initial, dues or fees deducted, dues rate, rate of pay,
station code, department, job, and status of employment will be transmitted with the monthly
fees/dues.
a. The Company will advise the Union
of the name, employee number, hire date,
home address, station code, department, job of
any new hires and the names, employee numbers and dates of all other employees covered
by the Agreement who have been terminated,
laid off, retired, transferred, changed status,
or recalled at the time the Company turns
over the monies to the Union per above.
3. It will be the responsibility of any employee who is not on a dues deduction program to
keep their membership current by direct payments of monthly dues or Service Fees to the Union.
4. No employee covered by this Agreement
or an employee whose employment is terminated

App. 48
pursuant to the provisions of this Section B, nor
the Union, will have any claim for loss of time,
wages or any other damages against the Company
because of the Company’s agreeing to this Section
B of this Agreement or because of any alleged violation, misapplication, compliance or non-compliance with any of the provisions of this Section B.
The Union will indemnify the Company and hold
the Company harmless from any and all such
claims and any and all legal fees incurred by the
Company in connection therewith, except to the
extent that such claims or fees are ﬁnally determined by a court of competent jurisdiction to have
resulted from the gross negligence, fraud or willful
misconduct of the Company. If the Company is
named as a defendant or charged party in any
action by an individual discharged pursuant to
the provisions of this Article, the Company will
promptly notify the Union and the Union will undertake the defense of the case. Subject to the
Company’s right to elect to undertake its own defense, the Union will maintain the exclusive right
to defend, settle, mitigate damages, litigate, and/or
take whatever action it deems necessary and
proper through attorneys of the Union’s choosing
and at the Union’s cost. If the Company decides to
retain its own counsel, it will do so at its own cost,
and not at the cost of the Union, and if the Company elects to undertake its own defense the Union will be relieved of its obligation in this Section
to indemnify the Company and hold the Company
harmless. Nothing in this Section will prohibit
the Union from ﬁling a claim against the Company for noncompliance with this Section B or
obligate the Union to indemnify the Company for,

App. 49
hold the Company harmless from, or defend the
Company in the event the Union ﬁles such a claim
against the Company.
5. Any employee maintaining, or maintaining and accruing, seniority under this Agreement
but not employed in a classiﬁcation covered by this
Agreement will not be required to maintain Union
membership during such employment but may do
so at his option. Should such employee return to a
classiﬁcation covered by this Agreement, he will be
required to become a member of the Union within
15 days after the date he returns to such classiﬁcation, and will, as a condition of employment in
classiﬁcations covered by this Agreement, become
a member of the Union and maintain membership
in the Union so long as this Section B remains in
effect, to the extent of paying an initiation (or reinstatement) fee and/or monthly membership
dues or Service Fees.
6. The payment of membership dues or Service Fees will not be required as a condition of employment during leave of absence without pay.
7. The provisions of this Section B will not
apply to any employee covered by this Agreement
to whom membership in the Union is not available
by tender of initiation (or reinstatement) fee, if
applicable, and monthly dues or Service Fees,
upon the same terms and conditions as are generally applicable to any other employee of his classiﬁcation at his point on the Company’s system or
in the local lodge on the Company’s system to
which assigned by the Union, or to any employee
to whom membership in the Union is denied or

App. 50
terminated for any reason other than the failure
of the employee to tender initiation (or reinstatement) fee, if applicable, and monthly dues.
8. If an employee covered by this Agreement
becomes delinquent in the payment of monthly
dues or Service Fees, the Union will take steps
necessary in accordance with its established procedures to notify the employee in writing that he
is delinquent in the payment of monthly membership dues or Service Fees as speciﬁed herein and
accordingly will be subject to discharge as an employee of the Company. If such employee still remains delinquent in the payment of dues or
service fees after the Union has completed all
steps in its established procedure, the Union will
certify in writing to the Company that the employee has failed to remit payment of dues or Service Fees within the grace period allowed under
the Union’s procedure and is, therefore, to be discharged. The Company will then promptly notify
the employee involved that he is to be discharged
from the services of the Company and will
promptly take proper steps to so discharge the employee.
9. When a member of the Union properly executes a dues or fees authorization check off form
the President and Directing General Chairman of
the Union will forward the necessary information
to a Payroll Representative designated by the
Company. A check off form must be completed in a
legible manner acceptable to the Company or it
will be returned to the President and Directing
General Chairman of the Union for correction.

App. 51
10. Any notice of revocation of checkoff authorization as provided for in this Article or the
Railway Labor Act, as amended, must be in writing, signed by the employee and 2 hard copies delivered by ﬁrst class mail or other mode of delivery
accepted in the ordinary course of business, addressed to the President and Directing General
Chairman of the Union. Dues or Service Fee deductions will be continued until 1 copy of such notice of revocation is received by the appropriate
Payroll Representative from the President and Directing General Chairman of the Union.
11. An employee who has executed a check
off form and who (1) has been promoted to a job
which is not covered by the Agreement and in
which the employee does not pay a monthly administrative fee to retain seniority pursuant to Article 7.G.3, (2) resigns from the Company, (3) is laid
off and accepts employment in classiﬁcations not
covered by any IAM Agreement, or (4) is otherwise
terminated from the employ of the Company, will
be deemed to have automatically revoked his assignment as of the date of such action. If such an
employee (1) transfers back or returns to a job covered by the Agreement, (2) is rehired, (3) is recalled, or (4) is reemployed, further deductions of
Union dues will be made only upon execution and
receipt of another check off form. An employee
who has executed a check-off form who enters
layoff status directly from a position covered by
this Agreement will have his dues or Service Fees
deductions automatically reinstated upon direct
recall to a classiﬁcation covered under this Agreement.

App. 52
12. The Union will be responsible to collect
(1) back dues or Service Fees owed at the time of
starting deductions for any employee, (2) dues or
Service Fees missed because the employee was delinquent in dues or fees at the time of going on
leave of absence, and (3) initiation (or reinstatement) fees or dues or Service Fees missed because
of accidental errors in the Union’s accounting procedure.
13. Dues or Service Fee deductions are to
be withheld from the ﬁrst pay date of the month.
Should a deduction be missed, or in the event an
insufﬁcient amount is deducted the proper adjustment will be made from the next pay check(s) until
collected.
14. Check off forms submitted to the Company at least 12 days or more before the ﬁrst pay
date of the month will commence deductions on
that date. When a check off form is submitted to
the Company that indicates an initiation (or reinstatement) fee is to be withheld that fee will be
withheld equally from the ﬁrst 2 pay dates of the
month and dues or Service Fee deductions will
commence the following month.
15. In the event of termination of employment, there will be no obligation of the Company
to collect initiation (or reinstatement) fee or dues
or Service Fees until all other deductions have
been made, and such obligation to collect dues or
Service Fees will not extend beyond the pay period
to which the employee’s last day of work occurs.
16. The seniority status and rights of employees granted leaves of absence to serve in the

App. 53
Armed Forces will not be terminated by reason of
any of the provisions of this Section B, but such
employees will upon resumption of employment in
classiﬁcations covered by this Agreement be governed by the provisions of Section B.2 above.
17. When an employee is to be discharged by
the Company under the provisions of this Section
B, the discharge will be deemed to be for cause
within the meaning of the terms of this Agreement. A grievance by an employee who is to be
discharged as the result of an interpretation or
application of the provisions of this Section B will
be subject to the following procedure:
a. Such employee who believes that the
provisions of this Section B pertaining to him
have been improperly interpreted or applied
and who desires a review must submit his request for review in writing within 5 days from
the date he receives notiﬁcation of the discharge. The request will be submitted to the
Vice President of Labor Relations with a copy
to the President and Directing General Chairman of the Union. The Vice President of Labor
Relations or his designee will review the
grievance and render a written decision, to
the employee, with a copy to the President
and Directing General Chairman of the Union
not later than 10 days following receipt of the
grievance.
b. If the decision is not satisfactory to either the employee or the Union, then either
may appeal the grievance directly to the System Board of Adjustment within 15 days from

App. 54
the date of the decision. The terms governing
the Board of Adjustment will be applicable,
except as otherwise speciﬁed herein.
c. During the period a grievance is
pending under the provisions of this Section
and until a decision is rendered by the Vice
President of Labor Relations or his designee,
or by the Board of Adjustment if appeal is
made to that Board, the employee will not be
discharged from the Company because of noncompliance with the terms of this Section A.
d. Saturdays, Sundays, and holidays
will be excluded only from the time limits
speciﬁed in this Section B.17.
C.

Union Ofﬁcials
1. The Union will notify the Company in
writing of the election, appointment, or removal of
Union shop steward(s). The District Lodge will notify the Company in writing of the Committee
members at that location.
2. Effective upon the Date of Signing of this
Agreement, the Company will assume the cost of
a total of 150,000 hours of straight-time pay per
year, to be used by shop stewards and other employees authorized by the Union for the purpose of
administration of this Agreement and all other
collective bargaining agreements between the Union and the Company.
a. Shop Stewards and other employees
authorized by District Lodge 141 must give
prior notice and report all time spent on

App. 55
Union business to the designated management representative.
b. The Union will apportion the total
annual allotment of 150,000 hours among the
Company collective bargaining agreements it
administers. In the event of an increase or reduction in the number of such agreements,
the parties will meet to discuss and agree
upon a proportionate adjustment in the hours
allotment.
3. The parties will work with each other in
good faith to ensure both that (1) employees are
reasonably represented in grievances and (2) the
Company’s operation continues without undue delay.
4. The Union will provide the Company with
the names, addresses, and phone numbers of its
ofﬁcial Union Representatives.
5. The Company will provide the Union a
reasonable amount of time as needed (not to exceed 2 hours) to participate in new-hire orientation for employees covered under this Agreement.
6. If requested by the Union and agreed to
by the Company, Local Committeemen may be assigned to the Day Shift and to Saturday and Sunday as regular days off. In the event a signiﬁcant
dispute arises and remains unresolved it may be
escalated to the level of AGC and HR at that station/location and, if not resolved, to the VP of Labor Relations and the President and Directing
General Chairman.

App. 56
D.

Union Travel and Access to Company Facilities
1. Union Travel Employees of the Union will
be furnished positive space transportation over
the lines of the Company for the purpose of administering this Agreement at the level and to the extent such passes are provided to ofﬁcials of other
unions representing other Company work groups.
2.

Bulletin Boards

a. The Company will provide bulletins
boards (maximum dimension 3' x 5') acceptable to the Company for the Union’s exclusive
use at each station/location where employees
covered by this Agreement are located. The
Company and the Union will determine the
placement of bulletins boards by mutual
agreement.
b. No political, inﬂammatory, controversial, or derogatory material will be permitted
on Union bulletin boards. Union bulletin
boards will be used exclusively for Union notices or materials regarding the following:
•
•
•
•
•
•

Union recreational and social affairs
Union elections
Union appointments and results of
Union elections
Union meetings
Educational materials relating to
contract administration
Excerpts from ofﬁcial Union publications

App. 57
There will be no other general distribution or
posting by employees on the Company’s property.
3. Union Access. The Company will sponsor the
ofﬁcially designated representative(s) of the Union in
obtaining appropriate credentials (S.I.D.A. Badge).
The Company agrees to admit to its bases the ofﬁcially
designated representative of the Union to transact
business as is necessary for the administration of the
Contract. Such business will not interfere with the operations of the Company.

EXHIBIT 4
International Association of
Machinists and Aerospace Workers
[SEAL]
CONSTITUTION
January 1, 2017
*

*

*

ARTICLE VII
GENERAL SECRETARY-TREASURER
Duties
SEC. 1. The G.S.T. shall be the secretary and
keep correct records of all meetings of the E.C. and of
all conventions of the G.L. He/She shall cause the
proceedings of all meetings of the E.C. to be printed
in pamphlet form and mail a copy thereof to each L.L.

App. 58
within 90 days from the date the minutes of the meeting are approved. He/She shall conduct all correspondence in the name of the G.L., excepting correspondence
dealing with the duties and responsibilities of the ofﬁce of the I.P., and be subject to the directions of the
E.C. Whenever necessary he/she may visit any L.L. or
D.L. for the purpose of instructing the ofﬁcers in the
performance of their duties. He/She shall assume responsibility regarding the issuance of Veteran Badges.
He/She shall have the general supervision of the business of his/her ofﬁce and, upon request, shall submit
his/her books of account together with all papers, ﬁles,
documents, etc., in his/her possession for the inspection
of the E.C. and the certiﬁed public accountant. Ile/She
shall also codify and index the various articles and sections of this Constitution.
Receipt of Funds
SEC. 2. The G.S.T. shall receive all funds paid to
the G.L. from all sources and distribute same to the
credit of the accounts for which they are intended. District lodges, local lodges not afﬁliated with a full service district lodge, and unaffiliated local lodges, at
their option, may elect to have all monthly membership dues and fees collected by the G.S.T. Initiation and
reinstatement fees will be reconciled with the D.L.
and/or L.L. The G.S.T. shall distribute the appropriate
amounts from the monthly dues and fees collected to
the D.L.s and LLs. He/She shall keep a systematically
arranged book account between the G.L. and each L.L.
He/She shall, upon request of any L.L., furnish a copy

App. 59
of the expense account of any paid representative of
the G.L. for the period speciﬁed by such Li., provided
such request does not include a period prior to the next
preceding G.L. audit.
Deposit of Funds
SEC. 3. All monies received by the G.S.T. shall be
deposited daily by him/her in a bank of sound ﬁnancial
standing in the name of the G.L., which deposit shall
be subject to withdrawal check signed by the G.S.T. and
countersigned by the LP. He/She shall invest, in conformity with the provisions as contained in SEC. 3, Art.
V., the accumulated G.L. funds in excess of $100,000 as
directed by the E.C.
Per Capita Tax and Fees
SEC. 4. The G.S.T. shall collect per capita tax in
proportion to the business transacted as shown by the
regular monthly report of each L.L., in accordance with
the following rates, which include subscriptions to the
I.A.M.’s magazine, THE JOURNAL, which will be published periodically, and the premium of L.L. and D.L.
ofﬁcers’ and employees’ bonds as required by law or
G.L. policy, up to a maximum of $10,000 as prescribed
in SEC. 6 of this Art.
Monthly per capita tax for all members:
Effective January 1, 2009, the monthly per capita
tax due G.L. shall be equal to the per capita tax in

App. 60
effect for 2008 plus $4.00 plus the percentage increase
in the weighted average on a union-wide basis of one
hour’s earnings of each L.L. member in effect on the
31st day of August 2008. Notwithstanding any contrary language in Article XXII, Section 9, district
lodges which are over the minimum Di. per capita may
not add any part of this $4.00 to their per capita tax
without speciﬁc authorization from the membership
and in accordance with D.L. bylaws.
Effective January 1, 2011, the monthly per capita
tax due G.L. shall be increased by $2.00 plus the average of the percentage increase in the Consumer Price
Index for Urban Wage Earners and Clerical Workers
(CPI-W) as published by the U.S. Department of Labor’s Bureau of Labor Statistics and the Canadian
Consumer Price Index as published by Statistics Canada. The “not seasonally adjusted” indices will be used.
Notwithstanding any contrary language in Article
XXII, Section 9, district lodges which are over the minimum D.L. per capita may not add any part of this
$2.00 to their per capita tax without speciﬁc authorization from the membership and in accordance with
D.L. bylaws.
Effective January 1, 2012, and each January 1
thereafter, the monthly per capita tax due G.L. shall be
increased by the percentage increase in the CPI indices as described above.
Ninety percent (90%) of the regular G.L. per capita
tax or the reduced G.L. per capita tax, whichever is
the lower, shall be allocated to the General Fund. Ten

App. 61
percent (10%) of the regular G.L. per capita tax or the
reduced G.L. per capita tax, whichever is the lower,
shall be allocated to the Strike Fund.
Beneﬁts from the Strike Fund shall be paid in accordance with SEC. 6, Art. XVI.
Monthly dues for
G.L. afﬁliation ............... determined by the E.C.
Unemployment stamp .....................................$ 1.00
Permanent retirement card
for all members ............................................ $15.00
Initiation or reinstatement per
capita tax ....................................................... $15.00
Reinstatement per capita tax when dues books
or dues cards are issued by G.S.T.
(Secs. 5, 15, and 19, Art. 1) .......................... $15.00
G.L. initiation or
reinstatement fee.......... determined by the E.C.
Upon receipt of per capita tax, accompanied by the
report of any L.L., the G.S.T. shall furnish stamps as
receipts, in proportion to the number of initiations,
reinstatements and number of months’ dues paid.
He/She shall also keep a record of all members afﬁliated with G.L.
The G.S.T. shall furnish a uniform dues book or
dues card at cost to L.Ls. in which stamps may be afﬁxed and cancelled. Dues books shall contain spaces
for the entering therein of transfers, assessments and
the designation of the amount of dues charged by each
L.L., and for the registering of votes in G.L. elections.

App. 62
Space shall also be provided for the insertion of the
Congressional or Assembly District, Legislative Assembly or Parliamentary Constituency of the member.
*

*

*

ARTICLE XXII
DISTRICT LODGES
Definition
SEC. 1. A D.L. is a delegate body made up of representatives duly elected from the L.Ls. within the
railroad or air transport system, industry, or locality in
which the D.L. is established.
Purpose
SEC. 2. D.Ls. shall be established and chartered
by the G.L. upon railroads and airlines, in industries
where mutual shop interests require it, and in localities where 2 or more L.Ls. exist, provided the total
membership is sufﬁcient to meet all the requirements
of this Art., for the purpose of securing mutual protection, l harmonious action, and close cooperation in all
matters relating to the trade.
Jurisdiction
SEC. 3. The jurisdiction of all D.Ls. shall be determined and deﬁned by the E.C.
Each L.L. within such jurisdiction shall become afﬁliated with the D.L. unless specially exempted by said
D.L. upon the approval of the E.C.

App. 63
Authority
SEC. 4. D.Ls. shall have authority over and control of all L.Ls. within their jurisdiction, subject to the
approval, however, of the G.L. Effective January 1,
2006, all dues and assessments of the afﬁliated L.Ls.
shall he remitted monthly to the D.L. S.T. in a manner,
and on forms, determined by the D.L. S.T. The D.L.
shall remit to the G.L. the Monthly Membership and
Per Capita Tax Report for each afﬁliated L.L. The D.L.
shall remit to the Li. the balance equal to the L.L. dues
minus G.L. and D.L. per capita taxes and required afﬁliation fees. A detailed explanation shall accompany
the remittance. The bylaws of the D.Ls., and the proposed amendments thereto, shall be submitted to the
I.P. for his/her examination, correction, and approval
before ﬁnal adoption. The provisions of this Constitution shall, insofar as they are practical and adaptable,
apply to and control all D.Ls.
Minimum Wage Scales
SEC. 5. D.Ls. shall establish a minimum scale of
wages in their respective localities for members employed as machinery erectors, and no member of any
L.L. shall accept work as a machinery erector under
the minimum wage established for the locality where
employed.
D.Ls. may also establish minimum wage rates in
their respective localities wherever they are in a position to enforce such rates, subject to the approval of the
E.C.

App. 64
Qualifications for Office
SEC. 6. Any member in good standing who is not
barred from holding union ofﬁce by applicable civil law,
or ineligible therefore under applicable provisions of
this Constitution, is qualiﬁed for election as a D.L.
*

*

*

EXHIBIT 5
[SEAL]

9414 7118 9986 4033 6847 43
CERTIFIED MAIL
TRACKING NUMBER

Susan D. Marshall
u241161
156 Plainﬁled Road
Metuchen, NJ 08840

[Illegible]

Dear Susan D. Marshall,
We want to take this opportunity, once again, to welcome you to employment at United Airlines and to give
you some information about the Union that represents
you in the workplace. District Lodge 141 of the International Association of Machinists and Aerospace
Workers (the IAM or the Machinists Union) is the collective bargaining representative for the workers at
this facility, and your membership is with Local Lodge
914. You should already have received information
about your rights and obligations under the contract
between the IAM and the Company and the many important beneﬁts that come with IAM membership.

App. 65
We want to reiterate that the wages, health insurance,
retirement beneﬁts, and other protections provided by
this collective bargaining agreement were not provided
by the Company as an act of generosity. Rather, they
are the result of the collective bargaining process.
Without the legal protection of the collective bargaining agreement, your employer would be free to change
or even eliminate health insurance, vacations and
holidays, retirement, and many other beneﬁts you will
enjoy. And, without a strong union supported by the
employees, the Union’s ability to protect and improve
your wages and beneﬁts in the future may suffer.
We encourage you to join your union. The Union’s
Membership Application, Check-Off Authorization,
Notice of Rights under your collective bargaining
agreement, and the contract’s union security clause
are enclosed. The complete bargaining agreement can
be found on our website at www.iam141.org.
Please note that your fellow employees voted to include
in the collective bargaining agreement a provision requiring all employees to pay monthly dues or fees to
the Union. We think this is only fair because every employee of this Company beneﬁts from the hard won collective bargaining agreement. But more importantly, it
was the democratically reached decision of your coworkers.
As explained in the enclosure, while monthly fees or
dues payments are required, formal membership in
the Union is not required. You should understand,
however, that if you decline membership you will be

App. 66
giving up the right to vote for Union ofﬁcers, attend
meetings to determine bargaining demands, or participate in the ratification of collective bargaining
agreements and strike votes; the right to serve on negotiating committees; the right to serve as delegates to
the International Union’s Convention; as well as the
right to enjoy the beneﬁts provided by the Union Privilege Program, including low-interest credit cards, prescription drug cards, life insurance, legal and travel
services.
According to the IAM’s records, you are recognized as
a fee objector. Therefore, your fee will be reduced per
the letter you received. The reduced union initiation
fee is $77.87 and the reduced non-member fee is
$43.26/month. You should have already received notice
of the obligation to pay initiation and monthly dues or
fees when you joined the bargaining unit, but whether
or not you did, you now have thirty (30) days from the
date of this letter to make you initial payments of the
initiation/reinstatement fee and the ﬁrst month’s dues.
If you fall two months in arrears in making the required payments you will be terminated from employment under the terms of the collective bargaining
agreement. Also note the legal obligations set out in
the material enclosed.
After making these payments, you must continue to be
in compliance with your ﬁnancial obligations by making monthly payments to the union. The easiest way to
meet your obligation boing forward is to sign the attached check-off authorization, so that your monthly
fees are automatically deducted from your paycheck. If

App. 67
you do not authorize check-off, you are responsible to
make monthly payments by check to the union. Even
if you agree to check-off, you still should send your ﬁrst
payment for initiation/reinstatement fee and one
month’s dues or fees to this ofﬁce by check.
Please ﬁll out and return the application with your
payment of $121.13 to I.A.M.A.W District Lodge 141 at
the address indicated on the letterhead. If you have
any questions about these materials or have some explanation for nonpayment, please do not hesitate to
contact us.
The Union belongs to its members, and we want every
bargaining unit employee we represent to be an active,
involved union member. Anytime you wish to become a
member, just seek out a union representative and we
will help you accomplish that.
Fee free to call our toll-free number at 888-608-1411
for any questions.
In Solidarity,
/s/ Alexander Gerulis
Alexander Gerulis
Secretary Treasurer
Enclosure
cc: S. Pantoja – GVP, Transportation
J. Tiberi – COS, Transportation
O. Cabrera – 1914 ST

App. 68
[SEAL]
September 8, 2017
Linda Rizzo-Rupon
u222104
126 Main St
Whitehouse Station, NJ 08889
Dear Linda Rizzo-Rupon,
We want to take this opportunity, once again, to welcome you to employment at United Airlines and to give
you some information about the Union that represents
you in the workplace. District Lodge 141 of the International Association of Machinists and Aerospace
Workers (the IAM or the Machinists Union) is the collective bargaining representative for the workers at
this facility, and your membership is with Local Lodge
914. You should already have received information
about your rights and obligations under the contract
between the IAM and the Company and the many important beneﬁts that come with IAM membership.
We want to reiterate that the wages, health insurance,
retirement beneﬁts, and other protections provided by
this collective bargaining agreement were not provided
by the Company as an act of generosity. Rather, they
are the result of the collective bargaining process.
Without the legal protection of the collective bargaining agreement, your employer would be free to change
or even eliminate health insurance, vacations and
holidays, retirement, and many other beneﬁts you will
enjoy. And, without a strong union supported by the

App. 69
employees, the Union’s ability to protect and improve
your wages and beneﬁts in the future may suffer.
We encourage you to join your union. The Union’s
Membership Application, Check-Off Authorization,
Notice of Rights under your collective bargaining
agreement, and the contract’s union security clause
are enclosed. The complete bargaining agreement can
be found on our website at www.iam141.org.
Please note that your fellow employees voted to include
in the collective bargaining agreement a provision requiring all employees to pay monthly dues or fees to
the Union. We think this is only fair because every employee of this Company beneﬁts from the hard won collective bargaining agreement. But more importantly, it
was the democratically reached decision of your coworkers.
As explained in the enclosure, while monthly fees or
dues payments are required, formal membership in
the Union is not required. You should understand,
however, that if you decline membership you will be
giving up the right to vote for Union ofﬁcers, attend
meetings to determine bargaining demands, or participate in the ratification of collective bargaining
agreements and strike votes; the right to serve on negotiating committees; the right to serve as delegates to
the International Union’s Convention; as well as the
right to enjoy the beneﬁts provided by the Union Privilege Program, including low-interest credit cards, prescription drug cards, life insurance, legal and travel
services.

App. 70
According to the IAM’s records, you are recognized as
a fee objector. Therefore, your fee will be reduced per
the letter you received. The reduced union initiation
fee is $77.87 and the reduced non-member fee is
$43.26/month. You should have already received notice
of the obligation to pay initiation and monthly dues or
fees when you joined the bargaining unit, but whether
or not you did, you now have thirty (30) days from the
date of this letter to make you initial payments of the
initiation/reinstatement fee and the ﬁrst month’s dues.
If you fall two months in arrears in making the required payments you will be terminated from employment under the terms of the collective bargaining
agreement. Also note the legal obligations set out in
the material enclosed.
After making these payments, you must continue to be
in compliance with your ﬁnancial obligations by making monthly payments to the union. The easiest way to
meet your obligation boing forward is to sign the attached check-off authorization, so that your monthly
fees are automatically deducted from your paycheck. If
you do not authorize check-off, you are responsible to
make monthly payments by check to the union. Even
if you agree to check-off, you still should send your ﬁrst
payment for initiation/reinstatement fee and one
month’s dues or fees to this ofﬁce by check.
Please ﬁll out and return the application with your
payment of $121.13 to I.A.M.A.W District Lodge 141 at
the address indicated on the letterhead. If you have
any questions about these materials or have some

App. 71
explanation for nonpayment, please do not hesitate to
contact us.
The Union belongs to its members, and we want every
bargaining unit employee we represent to be an active,
involved union member. Anytime you wish to become a
member, just seek out a union representative and we
will help you accomplish that.
Feel free to call our toll-free number at 888-608-1411
for any questions.
In Solidarity,
/s/ Alexander Gerulis
Alexander Gerulis
Secretary Treasurer
Enclosure
cc: S. Pantoja – GVP, Transportation
J. Tiberi – COS, Transportation
O. Cabrera – 1914 ST

App. 72
[SEAL]

9414 7118 9986 4033 8832 28
CERTIFIED MAIL
TRACKING NUMBER

September 8, 2017
Noemio M. Oliveira
u242113
2275 Biddle Lane
Easton PA 18040

[SEAL]
ARTICLE ADDRESSED TO:
Noemio M. Oliveira
u242113
2275 Biddle Lane
Easton PA 18040-8084

Dear Noemio M. Oliveira,
We want to take this opportunity, once again, to welcome you to employment at United Airlines and to give
you some information about the Union that represents
you in the workplace. District Lodge 141 of the International Association of Machinists and Aerospace
Workers (the IAM or the Machinists Union) is the collective bargaining representative for the workers at
this facility, and your membership is with Local Lodge
914. You should already have received information
about your rights and obligations under the contract
between the IAM and the Company and the many important beneﬁts that come with IAM membership.
We want to reiterate that the wages, health insurance,
retirement benefits, and other protections provided
by this collective bargaining agreement were not provided by the Company as an act of generosity. Rather,
they are the result of the collective bargaining process. Without the legal protection of the collective

App. 73
bargaining agreement, your employer would be free to
change or even eliminate health insurance, vacations
and holidays, retirement, and many other beneﬁts you
will enjoy. And, without a strong union supported by
the employees, the Union’s ability to protect and improve your wages and beneﬁts in the future may suffer.
We encourage you to join your union. The Union’s
Membership Application, Check-Off Authorization,
Notice of Rights under your collective bargaining
agreement, and the contract’s union security clause
are enclosed. The complete bargaining agreement can
be found on our website at www.iam141.org.
Please note that your fellow employees voted to include
in the collective bargaining agreement a provision requiring all employees to pay monthly dues or fees to
the Union. We think this is only fair because every employee of this Company beneﬁts from the hard won collective bargaining agreement. But more importantly, it
was the democratically reached decision of your coworkers.
As explained in the enclosure, while monthly fees or
dues payments are required, formal membership in
the Union is not required. You should understand,
however, that if you decline membership you will be
giving up the right to vote for Union ofﬁcers, attend
meetings to determine bargaining demands, or participate in the ratiﬁcation of collective bargaining agreements and strike votes; the right to serve on
negotiating committees; the right to serve as delegates
to the International Union’s Convention; as well as the

App. 74
right to enjoy the beneﬁts provided by the Union Privilege Program, including low-interest credit cards, prescription drug cards, life insurance, legal and travel
services.
The union initiation fee is $100.00 and the dues rate is
$57.34/month. You should have already received notice
of the obligation to pay initiation and monthly dues or
fees when you joined the bargaining unit, but whether
or not you did, you now have thirty (30) days from the
date of this letter to make your initial payments of the
initiation/reinstatement fee and the ﬁrst month’s dues.
If you fall two months in arrears in making the required payments you will be terminated from employment under the terms of the collective bargaining
agreement. Also note the legal obligations set out in
the material enclosed.
After making these payments, you must continue to
be in compliance with your ﬁnancial obligations by
making monthly payments to the union. The easiest
way to meet your obligation boing forward is to sign
the attached check-off authorization, so that your
monthly fees are automatically deducted from your
paycheck. If you do not authorize check-off, you are responsible to make monthly payments by check to the
union. Even if you agree to check-off, you still should
send your ﬁrst payment for initiation/reinstatement
fee and one month’s dues or fees to this ofﬁce by check.
Please ﬁll out and return the application with your
payment of $157.34 to I.A.M.A.W District Lodge 141 at
the address indicated on the letterhead. If you have

App. 75
any questions about these materials or have some explanation for nonpayment, please do not hesitate to
contact us.
The Union belongs to its members, and we want every
bargaining unit employee we represent to be an active,
involved union member. Welcome to the IAMI
Feel free to call our toll-free number at 888-608-1411
for any questions.
In Solidarity,
/s/ Alexander Gerulis
Alexander Gerulis
Secretary Treasurer
Enclosure
cc: S. Pantoja – GVP, Transportation
J. Tiberi – COS, Transportation
O. Cabrera – 1914 ST

App. 76
EXHIBIT 6
[SEAL]
7/17/2018
Linda Rizzo-Rupon
U222104
126 Main Street
Whitehouse Station, NJ 08889-3692
Re: Objector Fee Payments
Dear Ms. Linda Rizzo-Rupon,
Below is the status of your payments for 2018:
Jan-18, #1276, $43.26 deposited by DL141
Feb-18, #1279, $43.26, deposited by DL141
Mar-18, #1286, $43.26, returned to you, requested
that it be sent to Local 914
Apr-18, #1300, $44.01, returned to you, requested that
it be sent to Local 914
May-18, #1369, $44.01 forwarded it to Local 914 for
deposit
Jun-18, #1316, $44.01, deposited by DL141
Jul-18, #1323, $44.01, deposited by DL141
As of today, Local 914 has not yet received your March
and April payments. Please forward the payments to
them as soon as possible. As you might be aware, when
the payment falls two months behind, you could be
charged a reinstatement fee which is equivalent to 3
times monthly fees.

App. 77
Please kindly discard this notice if the payments have
been sent recently. Feel free to call if you have any
questions.
Payling Massingill
Assistant to Secretary Treasurer
IAMAW District Lodge 141
1771 Commerce Drive, Suite 103
Elk Grove Village, IL 60007
Ofﬁce 847-640-2222 ext 152
Cell 650-759-0822
cc: A. Gerulis, ST
R. Creighton, AGC
T. Galante, ST

EXHIBIT 7
Lin Rizzo-Rupon
U222104
December 27, 2018
I.A.M. District Lodge 141
1765 Commerce Drive
Suite 101
Elk Grove Village, IL 60007-2139
Dear Sir or Madam,
Enclosed you will ﬁnd copies of two checks that you returned to me because you “requested that it be sent to
Local 914.”
Since I was instructed in your letter dated September
8, 2017, to send all payments to the Illinois address,

App. 78
and since you have been accepting and cashing all
prior and subsequent checks sent to that original address, I will again attempt to remit these payments reﬂecting my March 1 and April 1 payments.
Regards,
Lin Rizzo-Rupon
Encs. 3
Ck #1372
Ck #1373
Copies of Returned Cks.

LINDA RIZZO-RUPON 11-06
1372
126 MAIN STREET
55-135/312
WHITEHOUSE STATION, NJ 08889-3692
872
27 Dec ’18
Date
Pay to the
Order of

I-A-M District Lodge 141

Forty Three and 26/100 -------------- Dollars

$ 4326
[Illegible]

Bank
America’s Most Convenient
Bank
For

Replaces ck# 1286
for 3/1/18 payment

/s/ Linda Rizzo-Rupon
1372

App. 79
LINDA RIZZO-RUPON 11-06
1373
126 MAIN STREET
55-135/312
WHITEHOUSE STATION, NJ 08889-3692
872
27 Dec ’18
Date
Pay to the
Order of

I-A-M District Lodge 141

Forty Four and 01/100 ---------------- Dollars

$ 4401
[Illegible]

Bank
America’s Most Convenient
Bank
For

Replaces ck# 1300
for 4/1/18 payment

JS 44
(Rev. 06/17)

/s/ Linda Rizzo-Rupon
1373

CIVIL COVER SHEET

The JS 44 civil cover sheet and the information contained herein neither replace nor supplement the ﬁling
and service of pleadings or other papers as required
by law, except as provided by local rules of churl. This
form, approved by the Judicial Conference of the
United States in September 1974, is required for the
use of the Clerk of Court for the purpose of initiating
the civil docket sheet. (SEE INSTRUCTIONS ON
NEXT PAGE OF THIS FORM)

App. 80
I.

(a)

PLAINTIFFS

Linda Rizzo-Rupon, Susan Marshall, Noemieo Oliveira
(b) County of Residence of First Listed Plaintiff
Hunterdon County
(EXCEPT IN U.S. PLAINTIFF CASES)
(c) Attorneys (Firm Name, Address, and Telephone Number)
Moench Law, LLC, 1303 Roger Avenue, Bridgewater,
NJ 08807 908-208-1910
DEFENDANTS International Association of Machinists and Aerospace Workers, AFL-CIO District 141 Local 914, et al.
County of Residence of First Listed Defendant
Union County
(IN U.S. PLAINTIFF CASES ONLY)
NOTE: IN LAND CONDEMNATION CASES, USE
THE LOCATION OF THE TRACT OF LAND
INVOLVED.
Attorneys (If Known)
II. BASIS OF JURISDICTION (Place an “X” in One
Box Only)
 1 U.S. Government  3 Federal Question
Plaintiff
(U.S. Government Not a Party)
 2 U.S. Government  4 Diversity
Defendant
(Indicate Citizenship of
Parties in Item III)

App. 81
III. CITIZENSHIP OF PRINCIPAL PARTIES
(Place an “X” in One Box for Plaintiff and One Box for
Defendant) (For Diversity Cases Only)
PTF DEF
Citizen of This State

1

1

Citizen of Another State

2

2

Citizen or Subject of a Foreign Country  3

3

Incorporated or Principal Place of
Business in This State

4

4

Incorporated and Principal Place of
Business in Another State

5

5

Foreign Nation

6

6

IV. NATURE OF SUIT (Place an “X” in One Box Only)
Click here for: Nature of Suit Code Descriptions.
CONTRACT






110
120
130
140
150




151
152



153






160
190
195
196

Insurance
Marine
Miller Act
Negotiable Instrument
Recovery of Overpayment & Enforcement of
Judgment
Medicare Act
Recovery of Defaulted Students Loans
(Excludes Veterans)
Recovery of Overpayment of Veteran’s
Beneﬁts
Stockholders’ Suits
Other Contract
Contract Product Liability
Franchise

App. 82
REAL PROPERTY







210
220
230
240
245
290

Land Condemnation
Foreclosure B
Rent Lease & Ejectment
Torts to Land
Tort Product Liability
All Other Real Property
TORTS
PERSONAL INJURY















310
315
320
330
340
345
350
355
360
362
365
367

Airplane
Airplane Product Liability
Assault, Libel & Slander
Federal Employers’ Liability
Marine
Marine Product Liability
Motor Vehicle
Motor Vehicle Product Liability
Other Personal Injury
Personal Injury – Medical Malpractice
Personal Injury – Product Liability
Health Care/Pharmaceutical Personal Injury
Product Liability
368 Asbestos Personal Injury Product Liability
PERSONAL PROPERTY






370
371
380
385

Other Fraud
Truth in Lending
Other Personal Property Damage
Property Damage Product Liability
CIVIL RIGHTS

☒


440 Other Civil Rights
441 Voting

App. 83






442
443
445
446
448

Employment
Housing/Accommodations
Amer. w/Disabilities – Employment
Amer. w/Disabilities – Other
Education
PRISONER PETITIONS






Habeas Corpus:
463 Alien Detainee
510 Motions to Vacate Sentence
530 General
535 Death Penalty






Other:
540 Mandamus & Other
550 Civil Rights
555 Prison Condition
560 Civil Detainee – Conditions of Conﬁnement
FORFEITURE/PENALTY




625 Drug Related Seizure of Property
21 USC 881
690 Other
LABOR








710
720
740
751
790
791

Fair Labor Standards Act
Labor/Management Relations
Railway Labor Act
Family and Medical Leave Act
Other Labor Litigation
Employee Retirement Income Security Act
IMMIGRATION




462 Naturalization Application
465 Other Immigrations Actions

App. 84
BANKRUPTCY



422 Appeal 28 USC 158
423 Withdrawal 28 USC 157
PROPERTY RIGHTS






820
830
835
840

Copyrights
Patent
Patent – Abbreviated New Drug Application
Trademark
SOCIAL SECURITY







861
862
863
864
865

HIA (1395ff)
Black Lung (923)
DIWC/DIWW (405(g))
SSID Title XVI
RSI (405(g))
FEDERAL TAX SUITS




870 Taxes (U.S. Plaintiff or Defendant)
871 IRS—Third Party 26 USC 7609
OTHER STATUTES










375
376
400
410
430
450
460
470






480
490
890
891

False Claims Act
Qui Tam (31 USC 3729(a))
State Reapportionment
Antitrust
Banks and Banking
Commerce
Deportation
Racketeer Inﬂuenced and
Corrupt Organizations
Consumer Credit
Cable/Sat TV
Other Statutory Actions
Agricultural Acts

App. 85






893
895
896
899

Environmental Matters
Freedom of Information Act
Arbitration
Administrative Procedure Act/Review or
Appeal of Agency Decision
950 Constitutionality of State Statutes

V. ORIGIN (Place an “X” in One Box)
 1 Original Proceeding
 2 Removed from State Court
 3 Remanded from Appellate Court
 4 Reinstated or Reopened
 5 Transferred from another district (specify)
 6 Multidistrict Litigation – Transfer
 8 Multidistrict Litigation – Direct File
VI.

CAUSE OF ACTION

Cite the U.S. Civil Statute under which you are ﬁling
(Do not cite jurisdictional statutes unless diversity):
28 USC 2201 and First and Fifth Amendments to the
United States Constitution
Brief description of cause:
The Railway Labor Act’s authorization of compulsory
agency fees is unconstitutional
VII.

REQUESTED IN COMPLAINT:

 CHECK IF THIS IS A CLASS ACTION UNDER
RULE 23, F.R.Cv.P.
DEMAND $
undetermined
CHECK YES only if demanded in complaint:
JURY DEMAND:  Yes

☒ No

App. 86
VIII. RELATED CASE(S) IF ANY (See instructions):
JUDGE
DATE
01/8/2019

DOCKET NUMBER
SIGNATURE OF ATTORNEY OF
RECORD
/s/ Matthew Moench

FOR OFFICE USE ONLY
RECEIPT #_____
AMOUNT _____
APPLYING
IFP ____
JUDGE ____
MAG. JUDGE ____

